<html>
<title> - BUILDING U.S. RESILIENCE TO GLOBAL WARMING IMPACTS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
           BUILDING U.S. RESILIENCE TO GLOBAL WARMING IMPACTS

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2009

                               __________

                           Serial No. 111-11


             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
62-454                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0a6d7a654a697f797e626f667a2469656724">[email&#160;protected]</a>  


                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                   Gerard J. Waldron, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Bart Forsyth, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared statement...........................................     3
Hon. F. James Sensenbrenner, Jr., a Representative in Congress 
  from the State of Wisconsin, opening statement.................     5
Hon. John Hall, a Representative in Congress from the State of 
  New York, opening statement....................................     5

                               Witnesses

John Stephenson, Director, National Resources and Environment, 
  U.S. Government Accountability Office..........................     6
    Prepared statement...........................................     9
Eric Schwaab, Deputy Secretary, Maryland Department of Natural 
  Resources......................................................    20
    Prepared statement...........................................    22
Stephen Seidel, Vice President for Policy Analysis, Pew Center on 
  Global Climate Change..........................................    28
    Prepared statement...........................................    30
Kenneth P. Green, Ph.D., Resident Scholar, American Enterprise 
  Institute......................................................    39
    Prepared statement...........................................    42

                          Submitted Materials

Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, a letter from Nancy Sutley, 
  Chair of the Council on Environmental Quality..................    19


           BUILDING U.S. RESILIENCE TO GLOBAL WARMING IMPACTS

                              ----------                              


                       THURSDAY, OCTOBER 22, 2009

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:35 a.m., in Room 
2175, Rayburn House Office Building, Hon. Edward J. Markey 
[chairman of the committee] presiding.
    Present: Representatives Markey, Blumenauer, Inslee, 
Cleaver, Hall, Speier, and Sensenbrenner.
    Staff present: Jonah Steinbuck and Ana Unruh Cohen.
    The Chairman. This hearing is called to order.
    This is the Select Committee on Energy Independence and 
Global Warming. We welcome you all here this morning.
    We all remember the tragic consequences of Hurricane 
Katrina: the breached levies, water-filled streets and families 
seeking shelter in the Superdome. While many individuals 
courageously responded to this disaster, government leadership 
failed the people of New Orleans when they needed help the 
most. Katrina foreshadows the consequences of climate change if 
we do not make the necessary preparations.
    Since then, scientists have shown that the warming of our 
climate system from emissions of heat-trapping gases, from our 
tailpipes and smokestacks, is unequivocal. We face not only an 
increasing number of strong storms but also many permanent 
alterations that will affect people throughout the country. 
Coastal cities like Boston will be at risk of inundation from 
sea-level rise, which is accelerating as our oceans warm and 
our polar icecaps melt. Alaskan villages are finding the land 
they call home literally melting out from underneath them as 
the permafrost thaws. In the West our shrinking mountain snow 
pack strains our water resource system. Throughout this country 
our farms are threatened by rising temperatures, water 
scarcity, and pests.
    For projected 2.2 degree Fahrenheit rise in temperatures 
over the next 30 years, we can expect significant declines in 
the crops that make up the base of our food system. The past is 
no longer a predictor of the future. We need to develop our 
resilience in order to safeguard our health, our environment, 
our economy and our national security. We need to develop a 
comprehensive strategy to adapt, conduct world-class climate 
research, and coordinate Federal, State and local action.
    Now some will argue that we should not address the root of 
the problem and only address its symptoms--that we should only 
adapt to climate change and not address global warming 
pollution. We cannot just address the symptoms. When someone 
has a heart attack, the doctor prescribes medication to help 
prevent another attack and puts the patient on a low-fat diet 
to improve long-term health. Our country experienced a heart 
attack in New Orleans, and we must now develop both the 
institutional medication to manage the impacts of warming and 
also shift society to a low-carbon energy regiment for a 
healthy climate. Just as we cannot medicate our way out of a 
heart problem, we cannot adapt our way out of global warming.
    We have taken the first steps to cut carbon pollution and 
build resilience to global warming impacts. Earlier this year, 
the House passed the Waxman-Markey American Clean Energy and 
Security Act, which will set us on a pollution-cutting path and 
at the same time create millions of new jobs making America the 
global leader of the clean-energy economy. The act will also 
create a national climate service that will provide decision-
makers with the very best climate information and help Federal 
agencies and States adapt to the dangerous consequences of 
climate change.
    In a new report that I requested, the Government 
Accountability Office assesses the current steps our country is 
taking to address the impacts of global warming. They find that 
Federal efforts thus far have been largely ad hoc. To 
effectively address the impacts, we need a strategic plan that 
sets out priorities, improves the information available to 
decision-makers and clarifies the roles and responsibilities of 
Federal, State and local governments. I look forward to the 
testimony of our witnesses and hearing from them how Congress 
can help build our resilience to global warming.
    Now I would like to recognize the ranking member of the 
committee, the gentleman from Wisconsin, Mr. Sensenbrenner.
    [The prepared statement of Mr. Markey follows:]

    [GRAPHIC] [TIFF OMITTED] T2454A.001
    
    [GRAPHIC] [TIFF OMITTED] T2454A.002
    
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    Adaptation is an important but overlooked facet of the 
global warming debate. That is probably why the GAO has 
concluded that Federal, State and local governments need better 
coordination on climate change adaptation strategies.
    It is a popular misconception that there is scientific 
consensus about the future impacts of global warming. And there 
is little agreement in the scientific community about what the 
specific effects of climate change will be. That is why a 
strategy that focuses on adaptation and not taxes makes more 
sense.
    Congressional Democrats believe a cap-and-tax plan will 
cure global warming, but there is little reason to believe that 
that is true. Unless China and India make similar emission 
cuts, there won't be any reduction in global temperatures.
    Cap-and-tax may not have much impact on global 
temperatures, but it will have a big impact on the American 
economy. The Waxman-Markey cap-and-tax bill calls for an 83 
percent cut from greenhouse gas emissions by 2050. But a study 
by the National Association of Manufacturers and the American 
Council for Capital Formation shows that, by 2030, the economy 
will already feel the pressure.
    Come 2030, cap-and-tax will have shaved as much as 2.4 
percent or $571 billion off the U.S. gross domestic product. 
That is nearly as much as the government spent on Social 
Security last year. Cumulative GDP lost during the coming 
decades would be enormous, with projections of more than $3 
billion in lost economic output.
    This isn't just a problem for business and industry because 
the government will also be shortchanged. In 2030 alone, 
Federal and State governments would see nearly $170 billion 
less in revenue. That is money that would be more wisely spent 
on adaptation. The GAO report shows that local and State 
government managers are finding it hard to fit global warming 
adaptation into their budgets as more pressing concerns over 
jobs, infrastructure, security and other issues are taking 
precedent, as they should. By enacting cap-and-tax and reducing 
economic growth Congress risks cutting the revenues the State 
and local governments will eventually need to fund climate 
adaptation projects.
    Proponents of the legislation argue that the bill will 
raise new tax revenues that can be used for adaptation. I would 
rather not reduce growth in the first place.
    The written testimony of one of today's witnesses 
emphasizes the importance of resilience to climate variability 
regardless of the cost. Dr. Kenneth Green, a resident scholar 
at the American Enterprise Institute, will submit testimony 
that highlights many important decisions for policymakers, such 
as faulty wisdom behind rapid development in areas prone to 
natural disaster, the need for investment in new climate 
technology, and the benefits market-pricing could bring to 
adaptation preparation.
    I welcome his perspectives as part of today's record and 
yield back the balance of my time.
    The Chairman. The gentleman's time is expired.
    The Chair recognizes the gentleman from New York, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman and Ranking Member 
Sensenbrenner.
    And I share the ranking member's concern about development 
in areas that are prone to natural disasters. I also 
congratulate him on getting the word ``tax'' in a record number 
of times in his opening statement.
    I think it is a very important hearing and look forward to 
our witnesses' testimony.
    Climate change adaptation has been a serious concern of 
mine for many years. My district is bisected by the Hudson 
River, one of America's national treasures, which is tidal all 
the way to Troy, New York, north of Albany. Along each side of 
the river, nearly at the water level, runs two rail lines; on 
the west side, a CSX freight line, and on the east side, the 
Amtrak and metro north passenger lines. Sea-level rise will 
imperil these lines, which will be incredibly expensive to move 
or to replace, as will the other infrastructure that we have 
counted on for years which are threatened along our coast.
    Many of the riverside communities in the counties I 
represent and other Hudson Valley counties have spent a fortune 
on urban renewal and revitalizing their waterfronts with 
boardwalks and restaurants and shops that are just barely above 
the level of the Hudson as it is today, and as a tidal estuary, 
obviously if the sea level rises, these beautiful new additions 
to our waterfronts will be possibly under water. Not to mention 
Hilton Head, Cape Hatteras, Key West and other places that some 
of us like to at least think about going to.
    Duchess County, my home county, has the third highest 
number of new cases of Lyme Disease of any county in the 
country. There has been serious speculation that the spread of 
these diseases, like Lyme and West Nile Virus, are linked to 
changes in temperature and the increasing range of the insects 
that carry those diseases.
    I will submit the rest of my statement for the record and, 
Mr. Chairman, yield back the balance of my time.
    The Chairman. I thank the gentleman very much.

STATEMENTS OF JOHN STEPHENSON, DIRECTOR, NATIONAL RESOURCES AND 
   ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; ERIC 
   SCHWAAB, DEPUTY SECRETARY, MARYLAND DEPARTMENT OF NATURAL 
RESOURCES; STEPHEN SEIDEL, VICE PRESIDENT FOR POLICY ANALYSIS, 
  PEW CENTER ON GLOBAL CLIMATE CHANGE; AND KENNETH P. GREEN, 
     PH.D., RESIDENT SCHOLAR, AMERICAN ENTERPRISE INSTITUTE

    The Chairman. Now we are going to turn to our first 
witness, Mr. John Stephenson, who is the Director of Natural 
Resources and Environmental Issues for the U.S. Government 
Accountability Office. He has testified many times before 
Congress, and he always produces excellent work.
    So we thank you, sir. Welcome back. Whenever you are ready, 
please begin.

                  STATEMENT OF JOHN STEPHENSON

    Mr. Stephenson. Thank you, Mr. Chairman, Mr. Sensenbrenner, 
Mr. Hall.
    I am pleased to be here today to discuss our report on 
climate change adaptation and the role of the Federal 
Government.
    The world's leading scientists predict that increased 
concentrations of greenhouse gases could, among other things, 
threaten coastal areas with rising sea levels; alter 
agriculture productivity; and increase the intensity and 
frequency of tropical storms and floods. In recent years, 
climate change adaptation has begun to receive more attention 
because the greenhouse gases already in the atmosphere are 
expected to continue altering the climate system in the future, 
regardless of efforts to control emissions. However, 
individuals and institutions whose futures will be affected by 
climate change are at present unprepared both conceptually and 
practically for meeting the challenges it presents.
    Our report for this committee, which is being publicly 
released today, addresses three issues: One, what actions 
Federal, State and local and international authorities are 
currently taking to adapt to climate change; the challenges 
that Federal, State and local officials face in their efforts 
to adapt; and three, actions that Congress and Federal agencies 
could take to help address these challenges.
    In summary, we found that many Federal agencies had begun 
to take action but that these actions are largely ad hoc and 
fall into categories, such as information for decision-making 
and Federal land and natural resource management, among others. 
There is currently no coordinated or overarching national 
approach to adaptation, but certain Federal entities have 
started to fill this gap.
    The President's Council on Environmental Quality is leading 
a new initiative to coordinate the Federal response to climate 
change in conjunction with the Office of Science and Technology 
Policy, NOAA and other agencies. Similarly, the U.S. Global 
Change Research Program, which coordinates and integrates 
Federal research on climate change, has developed a series of 
building blocks that outline options for future climate change 
work, including science to inform adaptation.
    While most government authorities have not yet begun to 
adapt to climate change, there are some shining examples at the 
State and local level where planning has begun in earnest. We 
visited three such locales; New York City; King County, 
Washington; and the State of Maryland, where government 
officials are making good progress.
    Our analysis of these sites suggest key factors that have 
led these governments to act: First, natural disasters, such as 
floods, heat waves, droughts or hurricanes, raise public 
awareness of the cost of potential climate change impacts. 
Second, leaders in all three sites use legislation, executive 
orders, local ordinance or action plans to focus attention and 
resources on climate change adaptation. Third, each of these 
governments had access to relevant site-specific information 
through partnerships with local universities and other entities 
that provided a basis for planning efforts.
    Based on our site visits and the results of the survey we 
sent to over 270 Federal, State and local officials, the 
challenges faced by adaptation planners fall into three 
categories: First, attention and available resources are 
focused on more immediate needs, making it difficult for 
adaptation efforts to compete for limited funds. Second, 
insufficient site-specific data, such as local projections of 
expected changes, makes it hard to predict the impacts of 
climate change and, thus, hard for local officials to justify 
spending resources now for benefits that may be derived in the 
distant future. Third, adaptation efforts are constrained by a 
lack of clearly defined roles and responsibilities for Federal, 
State and local agencies.
    Finally, our survey respondents suggested specific Federal 
actions that are needed to overcome these challenges. First, 
training and education efforts are needed to increase awareness 
among government officials and the public about the impacts of 
climate change and available adaptation strategies. Second, 
assistance is needed to interpret and develop site-specific 
information to help officials understand the impacts of climate 
change at a scale that would enable them to develop response 
plans. And third, there is a need to clarify roles and 
responsibilities across Federal agencies and with State and 
local governments.
    Our work suggests that a more coordinated Federal response 
would demonstrate a Federal commitment to adaptation. To that 
end, our report recommends the development of a national 
strategic plan that will guide the Nation's efforts to adapt to 
a changing climate, one that defines priorities, clarifies 
roles and responsibilities, facilitates the exchange of 
information, identifies resource needs and builds on existing 
adaptation planning efforts.
    Mr. Chairman, that concludes the summary of my statement. I 
will be happy to answer questions at the appropriate time.
    [The statement of Mr. Stephenson follows:]

    [GRAPHIC] [TIFF OMITTED] T2454A.003
    
    [GRAPHIC] [TIFF OMITTED] T2454A.004
    
    [GRAPHIC] [TIFF OMITTED] T2454A.005
    
    [GRAPHIC] [TIFF OMITTED] T2454A.006
    
    [GRAPHIC] [TIFF OMITTED] T2454A.007
    
    [GRAPHIC] [TIFF OMITTED] T2454A.008
    
    [GRAPHIC] [TIFF OMITTED] T2454A.009
    
    [GRAPHIC] [TIFF OMITTED] T2454A.010
    
    [GRAPHIC] [TIFF OMITTED] T2454A.011
    
    The Chairman. Thank you, sir, very much.
    At this time, I would like to ask unanimous consent to 
include in the record a letter from Nancy Sutley, who is the 
Chair of the Council on Environmental Quality, in which she 
agrees with the recommendations of the GAO report and lays out 
some of the steps they have already initiated to coordinate 
Federal adaptation efforts.
    Without objection, it will be included in the record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2454A.012
    
    The Chairman. Our next witness is Mr. Eric Schwaab, who is 
the Deputy Secretary of the Maryland Department of Natural 
Resources. He is going to help us to understand what Maryland 
is doing and what their ongoing work is in dealing with these 
issues.
    Welcome, sir.

                   STATEMENT OF ERIC SCHWAAB

    Mr. Schwaab. Thank you, Mr. Chairman, members of the 
committee. It is a pleasure to be with you here today to share 
some perspectives regarding Maryland's success in planning for 
climate change, as well as our ideas with respect to how we 
might improve the Federal presence and coordination of those 
activities.
    I would also like to mention how pleased we were to work 
with the GAO in the development of their report and to be 
featured as one of the local--as one of the States, the State, 
working on this issue.
    Maryland has in fact already recognized that the forces of 
climate change, particularly with respect to rising sea levels, 
have been set in motion irreversibly to a large degree; and 
that, in addition to enhanced focus on mitigation, we must take 
steps now to plan for implications of climate change as they 
affect us socially, economically and environmentally. We must 
fully integrate climate change adaptation planning into many 
existing State programs and practices. The same, of course, can 
be done at the Federal level.
    We cannot continue to plan and implement programs as if our 
environment was static from a climate perspective. From efforts 
to restore Chesapeake Bay, conserve forests, enhance wildlife 
habitats to local land-use decisions, every one of our actions 
must be taken with our best understanding of the realities of 
climate change at the forefront.
    This is of particular interest to Maryland. Chesapeake Bay 
is ranked the third most vulnerable region in the Nation to 
impact of sea-level rise. This has already been apparent in the 
loss of land along the Atlantic Coast and the Bay shoreline 
over the last 100 years. And due to climate change, we expect 
an acceleration of sea-level rise at least twice as fast as 
that which occurred during the 20th Century, resulting in 
potentially 2.7 to 3.4 feet of sea-level rise by the year 2100. 
Such a rise will cause increased vulnerability to storm events; 
more frequent and severe coastal flooding; inundation of low-
lying lands; submergence of tidal marshes; more shore erosion 
and salt water intrusion of salt water wells.
    Maryland is, of course, equally concerned with other 
consequences of change in climate. The State's agriculture 
industry, our forest resources, fisheries, fresh water supply 
and other aquatic and terrestrial ecosystems and, in addition 
to that, human health will all be impacted by increasing 
temperature and changes in precipitation patterns.
    All of these caused Maryland to initiate action. In April 
of 2007, Governor O'Malley signed an executive order 
establishing the Maryland Climate Change Commission. A year 
after its formation, the commission released Maryland's climate 
action plan, setting forth a course of action to stem not only 
the drivers of climate change but also for how to adapt to 
those inevitable consequences already set in motion.
    Maryland remains one of the few States that have included 
an adaptation component in State-level climate change action 
planning. Let me just highlight a few elements of our plan that 
have already been undertaken. We have made significant progress 
in acquiring new technology to look at historic shore-line 
change data and utilize this change data to undertake state-of-
the-art sea-level rise mapping and research. We have developed 
and enacted a Living Shore Line Protection Act and amendments 
to our Chesapeake and Coastal Bay's Critical Area Act, which 
will increase shore-line resiliency and limit building in the 
most vulnerable areas.
    Sea-level rise technical planning guidance was crafted for 
three of our most vulnerable coastal counties. In April of 
2009, with the help of our Coastal Zone Program, we hosted the 
Coast Smart Event, an interactive event to discuss and evaluate 
local planning strategies for communities to improve their 
ability to adapt to sea-level rise.
    Our transportation department is assessing impacts related 
to highway system planning. And our wildlife division is 
assessing climate change vulnerability as it relates to 
specific species of concern.
    We have already kicked off Phase II of development of our 
strategies, which will be focused on identifying further 
impacts in six issue-based areas, including water resources, 
agriculture, aquatic and terrestrial ecosystems, forestry, 
agriculture, human health and transportation and land use.
    We would like to offer just a couple of perspectives with 
respect to what the Federal Government we think in particular 
can do. There is much more detail of this in my written 
testimony.
    First, the Nation needs a clear national strategy. This 
strategy should provide an integrated approach to these 
challenges. Many programs undertaken in partnership by the 
State at the Federal level would benefit substantially by 
building in climate change assessments into program 
implementation.
    Secondly, the key role of the States in climate change 
adaptation planning must be clearly integrated into a national 
program.
    And finally, action at the Federal level to provide 
dedicated funding for adaptation is imperative to protect 
communities, natural resources, and the national interests from 
the impacts of climate change.
    There are additional suggestions in my testimony, Mr. 
Chairman, and I appreciate, again, the opportunity to be here.
    [The statement of Mr. Schwaab follows:]

    [GRAPHIC] [TIFF OMITTED] T2454A.013
    
    [GRAPHIC] [TIFF OMITTED] T2454A.014
    
    [GRAPHIC] [TIFF OMITTED] T2454A.015
    
    [GRAPHIC] [TIFF OMITTED] T2454A.016
    
    [GRAPHIC] [TIFF OMITTED] T2454A.017
    
    [GRAPHIC] [TIFF OMITTED] T2454A.018
    
    The Chairman. Thank you, sir. I appreciate it.
    Our next witness is Mr. Stephen Seidel. He is the Vice 
President for Policy Analysis at the Pew Center on Global 
Climate Change.
    We welcome you, sir.

                  STATEMENT OF STEPHEN SEIDEL

    Mr. Seidel. Thank you, Mr. Chairman.
    I am delighted to be here today and pleased that you have 
focused this hearing on what we need to do to adapt to climate 
change. Adapting to climate change is clearly necessary but 
should not in any way detract from efforts to reduce greenhouse 
gas emissions. Such reductions are the first and best line of 
defense against the risks of climate change.
    Why, then, should we also be focusing on adaptation? 
Because the science community has made it clear that our 
climate has already begun to change. We have experienced warmer 
temperatures, more extreme weather events and sea-level rise. 
Even with our best efforts to reduce future emissions, 
substantial amounts of climate change are unavoidable. 
Confronted with that reality, it no longer makes sense to 
assume that future climate will be the same as that of the 
past. We should be making every effort to adapt to these 
unavoidable changes in climate as we redouble our efforts to 
reduce future greenhouse gas emissions.
    The title of a recent U.N. report aptly captures what we 
need to do: Avoid the Unmanageable and Manage the Unavoidable. 
My written testimony provides some concrete examples of how the 
Federal Government can and must lead this effort to build 
greater resiliency into our economy.
    I want to focus on three ways this can be accomplished. 
First, adaptation must be mainstreamed across all relevant 
Federal programs. As the Nation's largest landholder, and the 
Federal Government owns about 29 percent of our Nation's lands. 
Many Federal assets are at risk from changes in climate. DOD 
alone has thousands of facilities located in coastal areas. 
Throughout our government and its programs, climate change 
impacts will be pervasive.
    To begin addressing the Federal role in adaptation, we 
recommend that all relevant Federal agencies undertake a 
strategic plan. This plan should identify an agency's programs, 
regulations and facilities that are affected by climate change; 
identify barriers to making these more climate resilient; and 
develop a plan of action and priorities for implementation. Our 
work on adaptation suggests that this strategic planning 
process can most effectively be coordinated through the Council 
on Environmental Quality, and we are encouraged that they have 
recently taken steps down this path by creating an interagency 
working group.
    We would recommend agency strategies as a first step, 
followed by sector plans to address critical crosscutting 
issues and to assure coordination among agencies. Once an 
initial round of agency and sector plans have been completed, 
we would then recommend a national strategy that was informed 
by these efforts and that sets priorities and goals.
    As part of mainstreaming adaptation, we also recommend that 
CEQ amend its existing regulations to clarify that climate 
change impacts and possible adaptation measures should be 
evaluated for all major Federal actions.
    Our second recommendation is the creation, through 
legislation, of a national climate change adaptation program. 
This would be a sister program to the two existing interagency 
climate change programs; the Global Change Research Program and 
the Climate Change Technology Program. Both have been 
established through legislation. The national climate change 
adaptation program could be created as an interagency program 
along the lines of GCRP, but its goal would be to facilitate 
development of high-level policy direction, coordinate Federal 
activities, and ensure proper integration across agencies.
    Our third suggestion relates to the need for the Federal 
Government to play a critical role in providing technical 
support to help State and local governments and the private 
sector to meet their adaptation challenges. Before any entity 
can respond to climate change, they first need information on 
what those changes are likely to be. We suggest the creation of 
a national climate service to fill this function and recommend 
that NOAA lead this effort. But we also recommend that other 
Federal agencies have important roles to play as sector leads 
for the purpose of effectively engaging State and local 
stakeholders.
    Finally, we are pleased that the House bill includes a 
substantial section on adaptation. We believe that what is in 
the bill can be improved though in three ways: First, by 
requiring all Federal agencies to undertake comprehensive 
adaptation plans rather than by limiting the scope of those 
plans to natural resources and public health issues, as is 
currently in the bill. It is critically important that other 
agencies, like the Department of Transportation, Department of 
Energy, Department of Defense, also undertake strategic plans.
    Second, while the bill creates a national adaptation 
program, it locates it within the Global Change Research 
Program and focuses its activities on research. We believe 
that, as currently drafted and passed by the House, it places 
too great an emphasis on the research side and shortchanges the 
critical needs to mainstream adaptation across all Federal 
programs.
    And finally, we believe the bill could clarify the 
structure of a national climate service and make it more 
focused on the needs of the users by identifying a critical 
role for other agencies to play.
    I would be glad to answer questions at the appropriate 
time.
    [The statement of Mr. Seidel follows:]

    [GRAPHIC] [TIFF OMITTED] T2454A.019
    
    [GRAPHIC] [TIFF OMITTED] T2454A.020
    
    [GRAPHIC] [TIFF OMITTED] T2454A.021
    
    [GRAPHIC] [TIFF OMITTED] T2454A.022
    
    [GRAPHIC] [TIFF OMITTED] T2454A.023
    
    [GRAPHIC] [TIFF OMITTED] T2454A.024
    
    [GRAPHIC] [TIFF OMITTED] T2454A.025
    
    [GRAPHIC] [TIFF OMITTED] T2454A.026
    
    [GRAPHIC] [TIFF OMITTED] T2454A.027
    
    The Chairman. Thank you, Mr. Seidel, very much.
    And our final witness is Dr. Kenneth Green, who is Resident 
Scholar at the American Enterprise Institute.
    We welcome you, sir. Whenever you are ready, please begin.

              STATEMENT OF KENNETH P. GREEN, Ph.D.

    Mr. Green. Thank you, Chairman Markey, Mr. Sensenbrenner, 
members of the committee.
    Thank you for inviting me to testify today on this 
important topic.
    Along with these remarks, I have submitted for the record a 
policy study that I recently completed, entitled ``Climate 
Change: The Resilience Option.''
    My testimony here today represents my personal views and 
should not be construed as the official position of any other 
institution or people.
    Before I get into the meat of my remarks, I would like to 
start with my three Bs; the background, biases and beliefs.
    As to background, I am a biologist and environmental 
scientist by training, an economist by exposure, and a policy 
analyst by vocation. I have been doing environmental policy 
analysis for 15 years now in the U.S. and Canada.
    My bias is for solving environmental problems wherever 
possible with more instruments that maximize freedom, 
opportunity, enterprise and personal responsibility. Thus, I 
strongly favor true market-based remedies for environmental 
problems over command-and-control regulation. I will observe 
here, with no offense intended, that cap-and-trade is not a 
true market-based instrument, as the government sets a limit on 
emissions rather than having the limit, quantity or price set 
by voluntary consumers in a free marketplace.
    Finally, my scientific beliefs are based on reading the 
literature as well as the IPCC climate science reports. And 
while I do believe greenhouse gases retain heat in the 
atmosphere, or we would not have a habitable planet, the heat 
retention ability of additional anthropogenic gases, I believe, 
is modest.
    I certainly do not believe in predictive modeling. And 
anyone who has looked at their 401(k) lately should take 
predictive models with a huge grain of salt.
    That said, I do believe climate science has taught us 
something very important, which is we have learned the earth 
climate system is not the plastic thing we had originally 
thought it was. It is prone to sharp shifts in temperature that 
can last between years to decades. So we should be changing the 
way we do things with regard to responding to our climate.
    How best can we ensure resilience? First, I believe we 
should shift our focus for mitigation of greenhouse gas 
emissions. Toward that adaptation agenda, we don't at present 
have the technologies needed to significantly curb greenhouse 
gas emissions without causing major economic disruption and 
without preventing the developing countries from developing, 
lifting their billions out of poverty and squalor. Even if we 
were to shut the United States and the EU off, the emissions 
from China and India would undo any environmental benefit in a 
matter of years. All that jacking up energy prices will do is 
deprive us of economic productivity, which is the ultimate 
wellspring of our resilience and well-being.
    Second, I believe we should stop making things worse. That 
is, we should remove the misguided incentives that have people 
living in climatically fragile areas, such as the water's edge, 
drought-prone locations, flood-prone locations and so on.
    Currently our Federal and State governments exacerbate this 
risk-taking by acting as the insurer of last resort. When 
people who live at the water's edge or in a flood plain are hit 
by storms and floods, governments intervene not only to rescue 
them but also to allow them to build right back where they 
were, so that they can be rescued again. We are doing this in 
New Orleans, and we will probably do this in California, 
putting people right back in the area they were burned out of 
this year.
    As Charles Perrow observes in his book ``Our Next 
Catastrophe,'' State-mandated pools have been established to 
serve as the market of last resort for those unable to get 
insurance, but the premiums are low, and thus, those have the 
perverse effect of subsidizing people who choose to live in 
risky areas, imposing excessive costs on people living 
elsewhere. Programs that subsidize climatic risk-taking should 
be phased out as quickly as possible in favor of fully priced 
insurance regimes.
    Rebuilding after disasters in climatically fragile areas 
should be discouraged. Eliminating risk subsidies would show 
people some of the true cost of living in climatically risky 
areas and would, over time, lead them to move to climatically 
safer places where they can afford to insure their property and 
safety.
    Third, we must look to our infrastructure. Another 
government action that leaves people to live in harm's way is 
the failure to build and price infrastructure so that it is 
sustainable and resilient to change. Governments build highways 
but generally without pricing mechanisms, thus no revenue 
stream is created to allow for the highway to be elevated or 
levies built if local flooding becomes a problem. There is also 
no price signal related to the users of the highway that 
reflect the climatic risk that their transportation choices 
face.
    The same is true of freshwater infrastructure, wastewater 
infrastructure, electricity and other infrastructure. 
Politicians enjoy cutting ribbons on new free infrastructure. 
They are less prone toward having the cost of that 
infrastructure show up in terms of tolls or user fees. 
Establishing market pricing of infrastructure would quickly 
steer people away from fragile areas, dramatically reducing the 
cost of dealing with climate variability.
    For example, consider our electricity supply, as long as 
governments distort the prices consumers pay for energy with 
subsidies, fuel mandates, renewable power mandates and the 
like, electricity markets cannot effectively adapt to change in 
climate conditions. If the markets were deregulated and the 
full cost passed along, price signals would be created for 
electricity providers to expand or reduce capacity in areas 
prone to heat waves or cold snaps and would also encourage 
consumers to adopt more efficient ways of using electricity.
    Finally, I would suggest we trust in resilience but tie up 
our camel. In the event that climate change does tend toward 
higher estimates put out by the United Nations and other 
groups, it is reasonable to consider insurance options that 
might help deal with such changes, including government R`D 
into geoengineering research and the removal of greenhouse 
gases directly from the atmosphere. Climate variability poses a 
risk to our population, and we should take steps to face that.
    Thank you for allowing me to speak. I look forward to your 
questions.
    [The statement of Mr. Green follows:]

    [GRAPHIC] [TIFF OMITTED] T2454A.028
    
    [GRAPHIC] [TIFF OMITTED] T2454A.029
    
    [GRAPHIC] [TIFF OMITTED] T2454A.030
    
    The Chairman. If we ever need a speed reader, we are 
bringing you back. You got a 7-minute statement in 5 minutes.
    Mr. Green. When you have one of those 800-page bills.
    The Chairman. 1,500 pages, Thank you.
    The Chair recognizes the gentleman from New York, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman.
    And thank you to all of our witnesses.
    I gather there is some rough consensus that there needs to 
be a Federal strategy for dealing with the effects of climate 
change. And several of you have talked about the need for 
strategy to coordinate Federal efforts with government-wide 
strategic planning or perhaps a working group akin to or under 
the auspices of the Council on Environmental Quality.
    In my relatively brief time here in Congress, I have seen 
problems that have been studied to death or seem to have been, 
shelves and shelves of reports from commissions and Blue Ribbon 
Panels, studies upon studies, studies of studies, that are 
gathering dust in offices around the Capitol with no 
enforcement mechanisms in place. Working groups rarely have a 
parent agency that is going to enforce implementation once the 
consensus, assuming that consensus, is reached.
    So my first question is, to each of you, is, what are your 
recommendations for making sure that whatever strategy is 
developed at the Federal level to coordinate these resources 
and efforts of the Federal Government will be effectively 
implemented and enforced, and what can we in Congress do to 
assist in that effort?
    Mr. Stephenson. I will start out. We think that is part of 
the reason that there needs to be an overarching strategy to 
decide where best to put that. We agree that it may not work 
within an existing agency. Many agencies can fulfill viable 
functions as part of that overarching strategy. However, we 
haven't looked at the need, for example, for an independent 
climate program officer or an independent agency or anything 
like that. But I agree with your concern that if there isn't a 
central authority to guide this and to enforce this, it may not 
work.
    Mr. Seidel. If I may just add to that, and I think I have 
had the misfortune of writing one or two of those reports that 
sat on a shelf. What we have seen in the case studies that we 
looked at was executive leadership is really critical. So when 
you have Governor Schwarzenegger, when you have Mayor 
Bloomberg, when you have Governor O'Malley saying through 
executive order this will be done and really charging the 
political leadership of those organizations to carry forward, 
it has gone a long way to ensuring follow-up action. But I 
wouldn't stop there. And that is in part why we also recommend 
changes to regulations requiring adaptation be taken into 
consideration in all major Federal actions through the NEPA EIS 
process.
    Mr. Hall. I notice in Mr. Schwaab's testimony that Maryland 
has already lost a number of islands in the Chesapeake that 
used to be islands and now are under water. We have seen 
changes in the acidification of the ocean due to absorption of 
carbon dioxide and so on.
    I am just curious, Dr. Green, whether you can tell me of 
any market forces so far that you are aware of that have come 
into play to stop those kinds of things from happening.
    Mr. Green. Well, thank you very much.
    I agree the acidification of the ocean is a potentially 
troubling side-effect of greenhouse gas emissions. It remains 
to be seen exactly how troubling.
    In the past periods, when shell animals actually ruled the 
oceans, CO<INF>2</INF> levels were considerably higher than 
they are today. So the idea that we will not have shell areas 
because CO<INF>2</INF> levels increase the acidification of the 
ocean has yet to be demonstrated.
    Will market mechanisms fix that, the acidification 
question? Probably not. The localization or the adjacency to 
water areas, yes. You could move people away from areas that 
are very highly prone to flooding. As my hydrology teacher used 
to tell us, you know why they call them flood plains, don't 
you? Because they flood, and so people should not be living in 
them. And to the extent that we subsidize their living there, 
we should cease doing so.
    Mr. Hall. I am in agreement.
    The question is how to get from here to there. For 
instance, people living on the barrier islands anywhere along 
the East Coast or the Gulf Coast.
    But to change the subject slightly, in the Hudson River, 
the salt wedge at high tide is drawn up to just south of the 
Chelsea Pumping Station, which is just south of Poughkeepsie. 
That is the backup water intake for New York City's drinking 
water in case the reservoirs fail or are sabotaged or in case 
the aqueduct fails. There is already concern that sea-level 
rise is projected, even just from the greenhouse gases that 
have already been emitted, may be sufficient to push that salt 
wedge up high enough to require desalinization of the water 
supply to New York City if they need to rely on the Chelsea 
Pumping Station.
    That is another question where, you know, I have yet to see 
a market force or hear one described that would either prevent 
that from happening by restraining the emissions that seem to 
be causing it, according to many scientists, or that would 
solve the problem. I think it is going to take, in my opinion, 
a governmental action or actions either to mitigate or to try 
to restrain the scenario. And with that question, I will yield 
back.
    The Chairman. A brief answer.
    Mr. Hall. It could be a comment.
    Mr. Seidel. It may be a comment, but if I may respond. Just 
classic markets work when all the cost and benefits are taken 
into consideration. When there are externalities, when external 
costs are not taken into consideration, markets don't work. And 
that is when government needs to step in and make those markets 
work more effectively. I think that is the classic case that 
you are describing.
    The Chairman. Mr. Green.
    Mr. Green. Yes, in fact, I agree with my colleague here. 
The right thing to do if you have an externality is to 
internalize the externality. There are indeed economic 
approaches that would solve the problem, such as instead of 
relying only on that water as your back-up, there could be 
other back-up systems established. Through the full cost 
pricing of water, people could use much less water, putting 
less strain on your existing water infrastructure. There are 
any number of things you could do to make your water system 
more resilient to change.
    If I believed we could actually take control of the global 
climate and push sea levels at whichever way we directed 
without going economically into complete disruption, I wouldn't 
have a problem with it. But I don't believe we have the 
technology to take over control of the global climate, and 
therefore, we have to adapt.
    The Chairman. The gentleman's time is expired.
    The Chair recognizes the gentleman from Wisconsin.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    I think we all know that the computerized projections on 
what is going to happen to climate can result in widely varying 
results 10, 15, 20, 50 years out if there is almost an 
infinitesimal change in the data which is put into the 
computer.
    Now, since 2000, according to Dr. Green's paper, which I 
believe to be scientifically valid, it has determined that the 
rate of our planet's warming has flattened out and begun to 
decline. And as a result, what has been talked about at the 
time of Kyoto before this flattening out of the temperatures 
and the slight declining of the temperatures will probably be 
significantly different by 2020, 2030 and definitely by 2050.
    When we are talking about resiliency and adaptation, if the 
premises upon which decisions are to be made are off and will 
result in the wide variation what the projections will be, how 
do we do it? I am going to start with you, Mr. Seidel.
    Mr. Seidel. Thank you, Mr. Sensenbrenner.
    Basically we are seeing this experiment unfold before our 
very eyes. We have seen temperatures rise. We have seen sea-
level rise. We have seen the loss of islands in Maryland so we 
are not just basing this on projections of computer models.
    The second point you raise is about the recent changes, the 
recent sort of flattening out of the temperature record since 
the year 2000. And every analysis I have seen expects that 
there will be--there is still natural variability in the 
climate system, there will be years that are warmer; there will 
be years that are colder. And the last couple of years have 
been relatively warm compared to the record. In fact, last year 
was the coldest year of this century, but the tenth warmest 
year I believe in the 150-year record. This decade, which you 
are referring to as climate has stabilized, will still be the 
warmest decade on the 150-year record.
    Mr. Sensenbrenner. Well, using the language of the left, I 
think, Mr. Seidel, that answer makes you a denier. Because if 
you look at the trend, there has been an at least flattening 
out of the warming trend or maybe a slight cooling trend since 
the year 2000. And I guess what I am saying is that the 
inconvenient truth of 2 years ago might not be either 
inconvenient or truthful today because of these types of 
changes.
    Now, what we are talking about here is an adaptation policy 
that is supposed to last for a while. And there will be certain 
economic and financial commitments that will have to be made in 
order to implement the adaptation policy. Given the fact that 
the projections of a decade ago that the temperatures will 
continue to rise and maybe even increase, how as policymakers 
are we to be able to decide in a manner that we won't be 
embarrassed later on by saying we were wrong in what the 
prescription was to deal with this issue?
    Mr. Seidel. In terms of adaptation itself, I think it is 
critical that the types of changes that we can make to our 
economic systems that are dependent on climate will create 
benefits. And those benefits are true whether there is rapid 
climate change, as the vast majority of scientists predict, or 
because of the climate variability, as my colleague here would 
suggest.
    Mr. Sensenbrenner. With all due respect, what I am saying 
is that you all are saying we ought to adapt, but you, Mr. 
Seidel, aren't adapting to new figures.
    I yield back the balance of my time.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentlelady from California, Ms. 
Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    Regardless of whether we believe climate change is real or 
not, it appears that the panelists agree that adaptation is a 
key component. So let's start there.
    Director Stephenson, in your GAO report, your third point 
was that basically, of the respondents, 71 percent of them 
believed it was the national role to come up with adaptation 
policies. Could you explore that with us a little bit more? 
What are the States looking for? What are the counties and 
cities looking for? What kind of direction are they expecting 
to come from the Federal Government?
    Mr. Stephenson. I think the biggest single need is probably 
localized information. Everybody has read the IPCC and what 
they think is going to happen in general as a result of climate 
change. But there needs to be a body of research and scientists 
that can help people translate those into what it means to my 
local community. And irregardless if you believe whether sea 
level is going to rise 2 feet or 8 feet, it is not an excuse 
for not planning an adaptation policy.
    For example, one of the case studies we looked at in King 
County, Washington, they are looking at the effects on our 
wastewater facility that is close to the Puget Sound. If they 
ignored the fact that sea level may rise 2 feet and inundate 
some of the pumps associated with that wastewater facility, 
they would be negligent.
    And planning is not going to be static either. You have 
to--the adaptation plan is going to be a moving target as the 
science gets better and better. It is just like anything else.
    So I think the localized information will be the starting 
point for local communities beginning to plan an adaptation 
program but has to be anchored in some sort of statistics on 
what will happen with the rivers and the oceans and et cetera.
    Ms. Speier. So knowing how strapped localities are right 
now, are you suggesting that the Federal Government should 
offer grants to localities to do this evaluation?
    Mr. Stephenson. We haven't looked at that specifically, but 
that is always a good incentive. And I believe, in the current 
House bill, that is proposed, to give States adaptation money. 
Nobody knows how much revenue the sale of carbon is going to 
produce, but that would be a good use of the money certainly.
    Ms. Speier. Does anyone else have comments on that?
    In California, and particularly in my district, there are 
some alarming statistics already and data that suggest San 
Francisco International Airport would be flooded, many of my 
communities would have tens of thousands of people that would 
be no longer--would be homeless, in effect.
    I, frankly, don't think insurance is the answer, Mr. 
Green--Dr. Green, excuse me, because I have seen all too well 
in California in terms of earthquake insurance that, at a 
point, the insurers no longer have enough money to respond to 
claims, and the State, in the case of North Ridge, was left 
holding the bag.
    So I guess my question to all of you, and Dr. Green, you 
could comment as well, is--I am not a fan of more studies as my 
colleague from New York has already stated. One of the things 
in California they are looking at is something called coastal 
armor, which I presume is levies. Why not take that kind of 
attack where you don't have to study anymore, you can just--on 
the coastal regions in this country--just incentivize 
localities to build up these levies?
    Mr. Green. May I comment?
    I also grew up in Los Angeles, by the way. I had the 
privilege of being there for the Elmore quake and the 
Northridge quake, so I understand the fragility of that 
particular part of the world.
    With regard to whether insurance works, I mean, if you 
reach a point where you have people living in an area that 
cannot be privately insured, that is a de facto problem by 
itself. I mean, that shows you that people are not willing to 
pay the full cost of living in the area, based on its fragility 
or its particular tendencies toward disruption.
    But I agree with you, there is no reason why, and I 
mentioned this in my paper, there is no reason why you can't 
install coastal armor, why you can't build sea walls as well. 
My suggestion though is rather than make the mistakes of the 
past by having the State governments build them, those should 
be done in public-private partnerships and based on the utility 
where people pay a certain share of the protective aspect of 
that levy.
    And again, the price signal will determine whether or not 
people are really willing to live there and how they want to 
protect themselves or if they need to move inland a bit. And we 
are talking--let's not forget, sea level is not simply going to 
go up 2 feet tomorrow. We are talking over 100 years, assuming 
it continues to rise at the rate it has since the last Ice Age. 
That is a lot of time for people to be able to creep back and 
adapt and build. We built systems much more quickly than that. 
We built the entire National Highway System in only 50 years. 
So there is time to adapt, and it is worth the effort of 
thinking through how to do it sustainably.
    Thank you.
    Ms. Speier. I see my time has expired, Mr. Chairman.
    I yield back.
    The Chairman. The gentlelady's time has expired.
    The Chair recognizes the gentleman from Oregon, Mr. 
Blumenauer.
    Mr. Blumenauer. Thank you.
    I cringe a little bit thinking about armoring the sea 
coast. I mean, you have a third of your--of coastal areas in 
southern California already armored. And we are watching what 
happens. As we deflect tidal action, we make it possible--
impossible to renourish beaches. We accelerate erosion 
elsewhere. And ultimately, we are ending up--I mean, it is a 
finger in the dike.
    So I know that there are some communities that do this 
repeatedly with artificial beach construction. But it brings me 
to an area where I actually agree with Dr. Green about the 
Federal Government subsidizing people living in places where 
nature indicates that it is really not a good idea.
    I have been extraordinarily frustrated having spent 7 years 
working on flood insurance reform, watching how hard it is to 
make that happen.
    Our colleague, the ranking minority member, Mr. 
Sensenbrenner, was concerned about our not being embarrassed in 
the future. Well, putting aside for a moment the scientific 
consensus about what is likely to be happening over 20 and 40 
and 60 years, I think the likelihood of embarrassment is much 
greater if we don't act than if we do.
    But it seems to me, for reasons that the panel has been 
touching on, this is something we should be doing even if we 
didn't believe that climate change was upon us, that sea levels 
were rising, that we were going to have more extreme weather 
events.
    We have already seen an increase in wildfires, in flooding, 
in storm events, insurance losses. And it would seem to me that 
we ought to listen to you and make our Federal policies 
consistent with strengthening these partnerships. Flood 
insurance reform, I think, would be one. The Coastal Barriers 
Protection Act, CBPA, resources, since I have been here, people 
come in and they try and nibble away at it because they want 
another area to be added. And there was a mapping error; there 
was new evidence. Basically, this was one of the most profound 
environmental pieces of legislation of the Reagan 
administration and something that we ought all to get behind 
and expand rather than minimize.
    I would just make an observation about market-driven 
solutions that Dr. Green is interested in, which I am very 
interested in pursuing. But I think, at core, our climate 
change legislation that a number of our colleagues here have 
been working on so heavily is a market-based solution. Cap-and-
trade injects an opportunity to create a market for carbon 
pollution and be able to make adjustments in a variety of 
markets at home and around the world. I am particularly 
interested, though, in some specific areas where we might be 
able to do a better job.
    Mr. Schwaab, you talked about what Maryland has done to try 
and protect development in sensitive areas. I come from a State 
that has a comprehensive plan that actually mandates that they 
be--that we are sensitive to natural hazards. And as our 
statewide land-use planning has taken effect over the course of 
the last 20 years, we are actually seeing a reduction in flood 
damage, for instance, at a time when we are seeing more of it 
nationally. Do you have a sense of what Federal policies we 
ought to be implementing that could strengthen Maryland's 
ability and other States to be able to protect these vulnerable 
places?
    Mr. Schwaab. Thank you.
    Let me just first say, generally, I think there are two 
levels of--two ways that we need to coordinate. One is better 
horizontally across the agencies. An example of that that I 
think has been very successful recently is in President Obama's 
executive order relating to coordination amongst Federal 
agencies in implementing the Chesapeake Restoration Program. 
And we have seen tremendous progress in a very short time as a 
result of that executive leadership and mandating horizontal 
coordination across the Federal agencies.
    The other way is what I would term perhaps more vertically 
oriented, and that is where there would be coordination, 
recognition, and implementation of adaptation perspectives in 
the implementation of programs that the States enact in 
partnership with the Federal Government. And that ranges from--
you know, that runs the gamut from highway planning and 
resource deployment to things like wildlife habitat action 
planning and forest conservation. And there are a number of 
sort of vertical opportunities where coordination down from the 
Federal agency with a specific implementation responsibility in 
cooperation with the State can do a better job.
    I think both of those generally have a lot to offer. There 
are some specific recommendations that are included in my 
testimony. I will give--the Coastal Zone Program has been an 
incredibly important force for us in allowing us to study and 
implement some of these adaptation strategies. And 
reauthorization of the Coastal Zone Act with a more explicit 
climate adaptation responsibility and role is something in 
particular that we highlighted in our testimony.
    The Chairman. The gentleman's time is expired.
    The Chair recognizes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Thank you for being here.
    Editorially, in my real life, I am a Methodist minister, 
and one of the least joyful parts of what I do is sitting by 
beds as people are dying. And one of the strangest things is 
that, in all the years I have been doing it, 30 years, I have 
never heard anyone say to me as they are moving toward sunset, 
you know, I really regret having taken such good care of my 
body. I have never heard anybody say, you know, I am 
embarrassed because I didn't smoke and I didn't get cancer; it 
is just so embarrassing, I don't know what to do. Maybe in the 
future, somebody will do it, but so far, I have never heard it.
    The testimony of Mr. Stephenson and Mr. Schwaab, if I 
understand it correctly, both of you are I think suggesting 
that we need this national strategy adaptation, whereas it 
seems, Mr. Seidel, that you are saying, you are suggesting that 
we ought to begin in the departments and develop the strategy. 
So there is--I think there is a difference here.
    I am on the housing committee. HUD, for example, is 
essentially doing that. But the impact won't be as great 
because there are instances where HUD, the activities of the 
Department of HUD interact with the Department--you know HHS or 
the Department of Justice. I am trying to reconcile the 
differences. Can you help me please?
    Mr. Seidel. I think it is a question of timing and staging. 
I think we all agree there needs to be a Federal-wide program 
and strategy. But we thought, based on our discussions with 
experts and what we have seen done in the past, that the 
agencies need to take it on first. And I would say the 
Department of the Interior is a great example of moving forward 
and looking through each of their program areas and coming up 
with what needs to be done to deal with the types of changes 
that have been discussed this morning. Then that, we believe, 
feeds into a national strategy. It is sort of the classic 
bottom-up/top-down type of, but in the end, you sort of want to 
end up in the same place.
    Mr. Stephenson. If I can comment. I think what we have seen 
is there has been a lot of activity at the individual agency 
level with climate change adaptation planning. In our report we 
are going to appendicize a summary of all the 15 or so agencies 
that have undertaken this. But what we are seeing and what we 
mean by ad hoc is there is no overarching national strategy. As 
part of that development of that strategy, we would see what 
the government structure would look like to implement that. 
Interagency task forces don't often work for the same reasons 
you have mentioned. If it is not the Department of Labor's 
issue, they don't worry about it. So they are of limited 
effectiveness.
    So we think that the part that needs to be studied in 
developing an overarching strategy is, who is going to do what 
assigning roles and responsibilities, certainly to get the 
Federal agencies coordinated but also to look downwards at the 
State and local governments as well.
    Mr. Cleaver. Mr. Schwaab.
    Mr. Schwaab. Thank you.
    We also don't believe it is an either/or circumstance. And 
I think Mr. Seidel is exactly right; there are some sequencing 
questions at play here. We have already seen some very 
important efforts come out of the Federal agencies. The Corps 
of Engineers in July of this year issued a report on sea-level 
change considerations for civil works projects. We have seen 
similar work in the Department of the Interior with the Fish 
and Wildlife Service, as was mentioned. Those things have been 
very important to us as a State.
    Thank you.
    Mr. Cleaver. This may be more philosophical, but in a free 
society, do you think people have the right to do bad things to 
themselves? Anybody.
    Mr. Green. May I? To themselves?
    Mr. Cleaver. Yes.
    Mr. Green. Generally speaking, yes. As long as they are not 
exporting the cost of their action to other people, I believe 
they have the right to do things that others may consider a bad 
tradeoff. I have heard people express regrets for not having 
traveled more as they get later in their life, or not having 
experienced things such as skydiving and taking risks. So I do 
believe that that is the case.
    I would also just like to contribute that what hasn't been 
mentioned here is the role that the military can play in 
looking at adaptation responses. And I know they are very 
interested in this. I have spoken at a military forum before 
where they need to plan for the adaptation of their bases. They 
need to plan for the adaptation of their structures, and they 
need to do that in conjunction with the other agencies, as well 
as the discussion of establishment of the north-south 
wilderness corridors and changing the way that we establish 
protective areas in the United States.
    Right now we do it by drawing circles on a map and putting 
someone's name on there as a park, which is not how the animals 
are going to need to respond if the climate changes and they 
need to move north and south. So those are the kind of changes 
that agencies can look at right away, agencies of the Federal 
Government can look at right away to increase our adaptivity, 
both ours and the ecosystems adapting to this.
    The Chairman. The gentleman from Washington State, Mr. 
Inslee.
    Mr. Inslee. I want to express a little concern about the 
subject we are talking about, which is how we respond to this 
problem. And I have a little bit of concern that talking about 
the problem of climate change and ocean acidification in these 
terms could somehow siphon off energy for trying to stop the 
disease in the first place.
    You see a little bit tone of that in this book Freakonomics 
that came out the other day, Freakonomics 2. And the author 
sort of said, well, you know, we don't have to stop 
CO<INF>2</INF> going into the atmosphere; we will just mitigate 
it somehow by putting a shield of sulfur dioxide. Now, in the 
book, I am told they have grievously misstated the scientists' 
positions, who now are absolutely in open rebellion against the 
two authors, who think they were grievously quoted wrong. But 
it shows this kind of syphoning off of energy if we start 
saying, we will just solve the problem by putting a big wall 
around us, you know, we will just isolate ourself from this 
problem, and that is how we will deal with it rather than 
really putting our energies into stopping CO<INF>2</INF> 
pollution.
    Should that be a concern at all, and if so, how do we make 
sure that while we are thinking about how to prevent or respond 
to the change that is already baked into the system, doesn't 
syphon off any of our energy, political or financial, to stop 
CO<INF>2</INF> pollution?
    Mr. Stephenson. From our perspective, all aspects are 
important. Emission reduction is important. We can't just 
expect to work our way out of this problem with just looking at 
an adaptation alone or emission reduction alone. Energy 
efficiency is a huge component as is renewables. The whole 
arsenal of things that we need to do to address this problem 
are important.
    Mr. Seidel. Congressman Inslee, my feeling is that the 
people who are on the ground experiencing the climate change 
that we are already having, the land managers, the coastal zone 
planners, they are the group that know what is happening, know 
the dangers that climate change is creating. And we need to 
enlist their support in efforts to mitigate and that mitigation 
is our first and best line of defense. But they can become 
allies in this effort, and it is not an either/or situation.
    Mr. Green. I believe that we have in fact--this attitude 
that you expressed has in fact kept adaptation off of the 
agenda for about 10 years or more since Kyoto to the detriment 
of these places that have experienced harms from climate 
variability. Having had a heart attack, I can tell you that we 
can't actually cure them. They don't know the causes of all of 
them. Even if you follow their advice, you still have them and 
you do treat the symptoms. And if you don't treat the symptoms, 
they get progressively worse. So you can't simply say, well, we 
are not going to treat your symptoms until we know every cause 
of coronary artery disease; you treat the symptoms while you 
look.
    Mr. Inslee. Well, we are doing that in my neck of the 
woods. King County, as you may have read in the GAO reports, 
have done some great work trying to respond to this problem. 
But I have--in talking to Federal agencies, I have been 
impressed by the lack of sort of institutional structure to 
make sure we do plan for the climate change that is already 
baked into the system.
    I was talking to someone in the Army Corps of Engineers 
whose responsibility is flood control. And I asked him, do you 
have a specific change in hydrological cycles that you build in 
your planning process? And the answer was uncertain at best. 
What should we do to try to make sure Federal agencies make 
this part of their regular planning process that hasn't been 
done?
    Mr. Seidel. We certainly think that it needs to be 
incorporated. And the first step is really for agencies to go 
back in and analyze what programs and activities they are 
responsible for where climate needs to be factored in and 
hasn't been up until now.
    Mr. Inslee. So, institutionally, how do we do that? I mean, 
do we have a climate change box they have got to check on every 
contract, that they have looked at those numbers? I mean, how 
do we institutionally do it? I am particularly thinking of the 
Corps at the moment I guess.
    Mr. Seidel. I think the executive order that was recently 
issued by the Secretary of the Department of the Interior 
mandates this requirement throughout Interior. And I think that 
is an important first step, but clearly, it needs to be 
followed up on, and it needs to be done, not just in Interior 
but in Department of Defense, as you suggested, and across many 
other agencies where climate impacts are going to be critical 
to the well being of their programs and activities.
    Mr. Inslee. Thank you.
    The Chairman. The gentleman's time has expired.
    And by the way, if members want to ask additional 
questions, they can do so.
    What I have done, and perhaps members--I wish that 
Congressman Cleaver was here because he actually gave me a tour 
of the Negro Baseball Hall of Fame that he actually helped to 
establish out in Kansas City. So what I decided to do is just 
to deal with this question.
    You already responded to it, Mr. Seidel.
    It is the question of where are we in the history of 
temperatures in terms of the planet and in terms of the United 
States. So I don't know if you can see this, but I have got a--
and I probably should put this in higher--in a larger form. But 
this is a picture of the world, and it is temperature 
differences from the average 1880 to 2008. And you can see that 
the temperature just continues to rise as industrialization 
really starts to hit in 1970, 1992, 2008.
    But for about a 10-year period, as you are saying, there is 
a new normal. And the new normal is way up here. And you are 
right, it hasn't really spiked higher than the new normal, but 
it is very, very, very high. And so what I did was I asked them 
to compare that to the number of 40 home-run hitters per season 
in the Major League Baseball. And as you can see, it tracks 
very, very closely to the temperature for the planet, except 
you get, as you do with a dramatic increase in CO<INF>2</INF> 
in the atmosphere, as soon as steroids starts getting injected 
into the system the number of home-run hitters of 40 or more 
spikes dramatically beginning in about 1996, 1997 until testing 
for steroids begins about 3 years ago. And then there is a 
dramatic decline in the number of 40 home-run hitters. Now we 
have yet to have, as we know, an interjection of public policy 
to deal with CO<INF>2</INF> in the atmosphere. So the average 
temperature kind of mirrors the height of 40 home-run hitters 
did before we had a new regime put in to test for artificial 
substances being put kind of an anthropogenic impact on the 
number of 40 home-run hitters. But once it is taken out of the 
system, it is amazing how it returned to the norm that existed 
before steroids were introduced.
    So I just believe that this artificial substance 
correlation is almost undeniable. And unless you want to 
believe, which I think Major League Baseball did, that when 
people started hitting 72 and 73 home runs, that that was the 
new normal, and then we adjust to the new normal in the same 
way that people want to adjust to the new normal for 
temperatures.
    Well, it hasn't gone any higher. That is okay. It has 
leveled off, and so why don't we just live with that? Kind of 
like saying to a kid, well, you have had 102 degree temperature 
for the last 10 days; that is the new normal. Don't worry about 
98.6, Mrs. O'Brien, you know, your boy will be okay; that is 
the new normal for Joey.
    Well, it is hard for parents or baseball fans or fans of 
the planet to kind of get used to having dramatic changes that 
are recurring that you are being told by doctors of the planet 
or of individuals or of baseball that there is nothing to worry 
about because that is the new normal. But then you begin to see 
changes in the physiology of baseball players. And originally--
and there can be contrary theories, too. You can say, well, you 
know, maybe the bats are better. Maybe the ball parks are 
smaller. Maybe the baseball players are doing more 
weightlifting than they used to do. And you keep trying to find 
other reasons. But yet that new normal is so much higher than 
Babe Ruth or Hank Aaron or Willie Mays or Ted Williams that you 
kind of wonder, can they be that much better? Can it just be 
kind of, you know, all these other circumstances and not the 
artificial substances going in?
    So it is kind of the rise of science here as used by man, 
mankind, to affect important systems. So I just thought I would 
throw that in and hope that maybe we could--you know, Major 
League Baseball at its highest level was kind of in denial 
because they really loved all the fans that were coming into 
the ballpark to see these home runs, you know. It was almost 
like using a baseball bat to hit a golf ball, it went so far. 
But it was normal, you know, all of a sudden. And then it 
stopped being normal again, and we went back down to the 
average that existed in 1964 and 1953. And that is what 
happened this year, you know, the home run leader only has like 
39 home runs, 40 home runs. I wonder why? I wonder if the bats 
aren't as good or the balls aren't tied together as tight or 
the players aren't lifting weights as much. But I think most 
baseball fans kind of get what went on.
    And that is what the polling kind of says about 
CO<INF>2</INF>. They kind of get it, you know. They know that 
there is something going on that is being created by man.
    So let me ask you this, Mr. Schwaab, when you were looking 
at Maryland in the same way that we look at Massachusetts--and 
as you know, the Supreme Court case of Massachusetts v. EPA was 
based upon the impact that CO<INF>2</INF> had upon our 
coastline. Why did you look at the coastline? Do you have a 
feeling that that is the most serious danger to the State of 
Maryland and, as a consequence, perhaps to Massachusetts as 
well?
    Mr. Schwaab. Thank you, Mr. Chairman.
    I think there were probably two factors at play. One was 
that heightened awareness of our threat. And I have spoken 
already about some of the evidence of vulnerabilities in 
Maryland, obviously, both on the Atlantic Coast as well as both 
sides of the Chesapeake Bay. But in addition to that, I think 
it is important to note that, while there was a heightened 
sense of awareness of that vulnerability, that our positioning 
to address this issue first was aided substantially by the 
availability of coastal zone, Federal coastal zone management 
funding. So, in fact, when Governor O'Malley tasked the climate 
commission, we had 10 years worth of data that had been 
gathered largely through the support of our Coastal Zone 
Program and through Federal funding that came in that way.
    By way of contrast, some of the other areas that we have 
concern about, that I mentioned that we will be dealing with in 
Phase II, impacts on rainfall patterns, agriculture, some of 
the forest concerns, were not areas where we had the wealth of 
data, so that we were positioned to make immediate changes. So 
Phase II is now to spend the time, the energy and the money to 
get the data related to some of those other issue areas so that 
we can be better positioned to make some, to develop some 
action plans.
    The Chairman. Thank you, Mr. Schwaab.
    Mr. Stephenson, in Mr. Schwaab's written testimony, he 
mentioned that three separate climate change adaptation 
strategies in the Chesapeake Bay region in the last year and a 
half have been put in place. From your experience with other 
complex environmental issues, do you have suggestions for the 
coordination efforts across Federal, State and local 
governments?
    Mr. Stephenson. Well, specifically, the overarching 
strategy is the starting point for pulling all that together. 
But what we noticed when we did our nationwide survey is that 
there is a huge lack of information out there about what is 
available. There is a lot of climate change information, 
adaptation information, scientific information about what could 
happen, but there are no information clearinghouses, for 
example, where all that resides. We had trouble finding people 
out in the State and local governments that were even aware of 
what was possible at adaptation, how to get started. So there 
is an information need out there as well.
    The Chairman. How would you address, what recommendations 
would you make in terms of balancing the short term versus the 
long term in dealing with climate change?
    Mr. Stephenson. Well, there just needs to be an 
organizational construct. I mean, there doesn't have to be a 
big bureaucracy to address Mr. Hall's concern, on the one hand. 
But right now, all the agencies are sort of doing their own 
thing. There is not this integration across the government; 
there is not good coordination from the Federal to the State 
and the local government. And that is the thinking that we 
think needs to go into this overarching strategy that hasn't 
happened yet.
    The Chairman. Mr. Seidel, it is clear that we need more 
resources to support site-specific data so that policymakers 
can plan for the impacts of global warming, and we are never 
going to get perfect information. How do we optimize our 
efforts, absent perfect information, which, of course, 
ultimately is unachievable?
    Mr. Seidel. And in fact, decisions now are being made on 
the basis of the one thing that we know is not true, and that 
is that the climate will not change. So any better information 
in terms of the direction the climate will change will improve 
those decisions.
    I want to come back to just the costs that are involved 
here, because the costs of not adapting, the costs of not 
making land-use decisions based on a changing climate, the 
costs of not designing bridges, intake valves for wastewater 
treatment plants or water-quality treatment plants, the cost of 
not doing that now is going to come back and really knock our 
society for a loop down the road. So that is why it is critical 
that this starts sooner rather than later.
    The Chairman. Can you give me your numbers again in terms 
of the 10 hottest days in history, 10 hottest years in history 
for the planet?
    Mr. Seidel. I don't have those right off the top of my 
head, but I will get them and put them on the record.
    The Chairman. But you said something like the last----
    Mr. Seidel. What I said was this last year was the coolest 
year of this century but I believe was the 10th warmest year 
among the record that dates back to the 1880s.
    The Chairman. And weren't the other nine since 1998?
    Mr. Seidel. I believe that is correct, yes.
    The Chairman. And so you heard my correlation in terms of 
years in which baseball players hit more than 40 home runs and 
the number of them. Do you think that there is any validity to 
the comparison I am making with steroids and CO<INF>2</INF>.
    Mr. Seidel. I think it is a wonderful analogy. The one 
aspect of it that I am concerned about is that when the players 
stopped taking steroids, you had an immediate drop-off. 
Unfortunately, one of the aspects of our climate system is that 
climate will continue to warm even once--if it were possible to 
reduce CO<INF>2</INF> emissions completely. So, unfortunately, 
we are committed to the not only increase we have seen but 
further increase, and not just for years but for decades and 
even centuries.
    The Chairman. That is actually very helpful, so it makes it 
even more urgent because the steroids in the planet system 
don't wash out.
    Mr. Seidel. They don't wash out, exactly.
    The Chairman. In a 6-month period. It takes a lot longer to 
get it out of the system and to begin to return it to some 
semblance of normality.
    Let me turn again and recognize the gentleman from New 
York.
    Mr. Hall. Thank you, Mr. Chairman.
    I just wanted to ask one more question. First of all, talk 
about the new normal, for a second, that you mentioned. Orange 
County, one of the five counties I represent, has some 
wonderful onion farmers who work the black dirt, as they call 
it. And they have been hit with repeated storms that are three 
50-year storms in the last 5 years. There have been several 
days this year alone when there have been tornadoes in Orange 
County, New York and other Hudson Valley counties. The Hudson 
valley isn't usually thought of as tornado alley.
    Last year, Cedar Rapids, Ohio--the city slogan was ``the 
city that never floods''--was under 12 feet of water, I 
believe. Three hundred miles of the Mississippi River were 
closed to shipping because the water level, the flood level, 
was higher than the locks and the mechanism had to be removed 
from the locks to keep permanent damage from being done to 
them. The boring beetles in the western--the Rockies and 
Sierras have been moving forward and drying out the trees by 
boring into them. And satellite photographs, aerial 
photographs, show brown swaths of forest just waiting for a 
lightning strike to set off one of these increasingly common 
and disastrous wildfires.
    So the question is, as far as this new normal is concerned, 
A, how hard are we as a country or as a society among other 
societies in the world willing to work to keep it from getting 
worse, to keep from the worst-case scenario? And B, how bad is 
that, and how hard should we be working to prepare for middle 
case or worst case? I don't think we can, that we can achieve 
the best-case scenario based on what I have seen so far. I 
spent a bunch of time last year at NOAA in Boulder and at the 
NREL and NCAR laboratories out there. And the predictions of 
NOAA, of the scientists, these aren't political people, they 
are scientists out there, show the growing latitudes for grain 
and other crops moving north. And I said, well, are we in 
danger of becoming a net importer of food rather than a net 
exporter of food? And they said, yes, that is possible. And the 
problem is that the alluvial plain in Canada doesn't allow for 
soil depth to, if it gets--you know, if you push the growing 
latitude for corn and soy and other grains, wheat and so on, 
far enough north, you run out of top soil to do it on. So more 
than or as much as coastal preservation or any of the other 
infrastructure and so on adaptations that we might look at, I 
am curious, maybe starting with Mr. Stephenson, what you 
foresee in terms of what we need to do to preserve our 
agricultural productivity and the land and climate necessary to 
have it.
    Mr. Stephenson. Well, let me just say, we are not a 
scientific organization, but the IPCC certainly is a symbol of 
the world's leading scientist in this area. And you are right, 
I think sea-level rise is the most talked about and the 
probably best understood of climate change impacts. But I don't 
think we fully understand the effect on storms, the effect on 
migration strategies, droughts. And as all that is crystalized, 
I think we will come up with different kinds of adaptation 
strategies for those. But I certainly don't have a silver 
bullet or a solution as to what we might do about that.
    Mr. Hall. Mr. Seidel, do you have a comment?
    Mr. Seidel. In terms of the range of impacts that we face, 
sea-level rise does get a lot of the attention, but it just 
really depends on where you are. Someone mentioned earlier 
melting of the permafrost in Alaska is critically important and 
something that is already being experienced. Droughts 
throughout the Southwest, I think, are critically important and 
certainly are what these projections would forecast. So it is 
really a wide range of issues.
    It is possible, though, to begin to plan for these now. 
Making more efficient use of water makes sense. It made sense 
yesterday. It makes sense tomorrow. It is going to make even 
more sense in the future. And we really can't waste any time in 
getting better programs in place to begin doing those things.
    Mr. Hall. Dr. Green, you looked like you wanted to comment.
    Mr. Green. Two things. One I wanted to talk about is the 
science element. We talked about a new normal. There is no such 
thing as a climate normal. We have got a climate that is 
billions of years old. It goes up, and it goes down in 
temperatures. Climate is, in fact, an average of 30 years of 
weather. Each individual dot, we would call a climate block. 
When you talk about climate, you are talking about 30 years of 
average weather.
    So 10 years, the fact that it has leveled off I don't 
construe to mean things are changing direction. However, the 
models at a certain point don't allow for that to continue, and 
so it does cast doubt on the forecasting ability.
    But with regard to your specific question, again, water 
subsidies and farm subsidies, obstacles to the deployment and 
development of genetically modified crops, these are all things 
that the Federal Government can affect that can make our 
agricultural base more resilient to climate variability, 
whether it is natural or anthropogenic. Thank you.
    Mr. Hall. Thank you, Mr. Chairman.
    The Chairman. Thank you so much.
    The importance of this hearing cannot be overstated, and we 
thank you so much for being here. There is an old saying: 
Sometimes you can be right but too soon. A lot of people just 
don't want to deal with the facts yet. And it can happen in a 
lot of things, including if a player on your team happens to 
jump from a 20 home run average to 50 all of a sudden, you 
don't want to ask too many questions. So it is kind of the same 
thing is true here.
    We have this conference that is going to occur in 
Copenhagen in December. The world has basically accepted the 
science. The National Academy of Sciences of every country in 
the world has signed off on the science. The world is waiting 
for the United States to be the leader and not the lagger. The 
consequences are obviously greater in the short run for 
developing countries around the world in terms of the impact of 
global warming. But inevitably, inextricably, it will hit us as 
well.
    And the Chesapeake Bay is a good example of warning to us 
that we are not immune. And adaptation will be very costly and, 
in some instances, very difficult to implement, but 
nonetheless, we have to start thinking about it. Otherwise, we 
will just be engaging in the kind of denial that ultimately 
turns the problem into something much worse. A stitch in time 
saves nine, so I think it is important for us to have this 
hearing because the GAO report, and we thank you so much, Mr. 
Stephenson, for it, will be a working document for the Select 
Committee on Global Warming as we make our recommendations to 
the Speaker and to the administration and to the American 
people.
    And all of the rest of your testimony is very helpful to 
us, including yours, Mr. Green.
    So why don't we give everybody a 1-minute summary, 
opportunity to make a 1-minute summary to us of what it is that 
you want us to keep in our minds six weeks out from Copenhagen 
as the world gathers and what the implications are of the GAO 
report and the testimony that we heard today? So we will give 
each one of you 1 minute to make your summary.
    We will begin with you, Mr. Green, which under the Green 
formula actually turns out to be 2 minutes worth of written 
testimony delivered in 1 minute.
    Mr. Green. Thank you. I will try not to rush through this. 
Thank you, Mr. Chairman.
    I think the key point I would raise for this is that, first 
of all, the technologies to reduce greenhouse gas emissions in 
the near term are very, very expensive and very limited. 
Unilateral action by the United States would lead to serious 
economic disruption.
    Nonetheless, the fact that we know the climate is a 
variable system leads us--should lead us to take actions to 
make ourselves more resilient to the face of change, whether 
that change is natural or anthropogenic.
    Therefore, I would suggest then refocusing our attention on 
finding ways to make ourselves more resilient at the Federal 
and State level. And I think a great deal of that involves 
removing incentives we have currently in place that lead people 
to live in harm's way in climatically fragile areas, in areas 
prone to drought, flood, fire, sea-level rise and salt-water 
intrusion. And if we address those things first, we would find 
the cost of adapting down the road to be considerably less than 
if we don't adapt--than if we don't address those things right 
up front.
    Thank you.
    The Chairman. Thank you, Dr. Green.
    Mr. Seidel.
    Mr. Seidel. Thank you, Mr. Chairman. And I do hope you are 
going to enter your graphs into the official record.
    The Chairman. It will be entered. It has to be perfected. 
This won't come out of your time. I am still working on 
completing the analogy. And I like the fact that I came up with 
a temperature for children analogy as well in terms of what is 
normal that the family has to adjust to. It is just too 
difficult for a doctor to figure out what is causing it, so we 
will just accept a new normal. So I am working on all of these 
analogies to deal with the preposterousness of saying that 10 
of the warmest years in history have occurred since 1998, but 
that is the new normal, and so just get used to it, and it 
won't go any higher than that ever again in the future. It just 
doesn't really make a lot of sense to me.
    So your 1 minute begins now.
    Mr. Seidel. Thank you.
    I think it is critical to look at adaptation policy as good 
economic policy and that these are costs that society is going 
to incur down the road. We heard about the San Francisco 
airport, the railroad lines in your district.
    I mean, if we don't begin adjusting our thinking, adjusting 
the way we plan, taking the types of actions that Maryland has 
begun to take, the economic costs are going to be so severe 
down the road that we will rue the day that we did not start 
adapting sooner.
    Thank you, sir.
    The Chairman. Thank you, sir.
    Mr. Schwaab.
    Mr. Schwaab. Thank you, Mr. Chairman.
    Let me just first emphasize some discussion about the 
concept of adaptation versus mitigation. While we are focused 
here today on adaptation, the concept of mitigation has also 
been prominent in Maryland. I wanted to emphasize that as sort 
of a two-pronged approach.
    The second thing that I wanted to emphasize is, again, the 
need for national coordination. And very specifically, that 
includes both Federal coordination among the agencies as well 
as leadership at the Federal level, but coordination between 
the Federal agencies and the State and local governments. So 
when we speak of national coordination, we speak implicitly 
about inclusion of the States and the local governments 
prominently in that discussion.
    We think it is absolutely imperative that government lead 
by example. We are doing that in Maryland. We see some of the 
Federal agencies doing that already, and we just need to build 
on that and get more strategic from a broader perspective.
    The Chairman. Thank you, Mr. Schwaab.
    And Mr. Stephenson.
    Mr. Stephenson. Mr. Chairman, I think that our biggest 
contribution in our report is the survey that we did of State 
and local officials. Those are the folks that are out there on 
the front lines of trying to do adaptation planning. And so I 
would just reiterate what they pointed out to us, that the need 
for training and education to increase awareness, they need 
more site-specific information. They need to know where to go 
to get that information, and they believe in clarifying roles 
and responsibilities.
    We think that strategic planning is needed to better 
integrate the Federal response to adaptation, and that is why 
we are recommending this need for a national framework or 
strategy in order to do that. We think CEQ and OSTP, who are 
leading those efforts right now, are off to a good start, and 
we will be watching anxiously to see how they proceed towards 
the development of that national strategy.
    Thanks.
    The Chairman. Thank you, sir.
    And what we would like, if it would be possible, is for our 
staff to work with you in terms of what a national framework 
should look like so that we can receive your expert advice on 
what makes the most sense for doing that. And we would 
appreciate that continued cooperation with us moving forward.
    Mr. Stephenson. I would be happy to do that.
    The Chairman. Thank you. And we thank each of our witnesses 
for your testimony today. And with that, unless there are any 
questions, this hearing is adjourned.
    Thank you.
    [Whereupon, at 11:12 a.m., the committee was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
